No. _______________
_____________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________________
TYRUS D. COLEMAN – PETITIONER
VS.
RON NEAL – RESPONDENT
_____________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
_____________________________________________
PETITION FOR WRIT OF CERTIORARI
_____________________________________________
John A. Kindley
1626 Lincoln Way East
South Bend, IN 46613
(574) 400-5094
john@kindleylaw.com
Counsel of Record for Petitioner

QUESTIONS PRESENTED
Petitioner shot on his property in quick succession two armed and threatening
trespassers, who were father and son. He shot the father when he marched up to
within close range of him while holding a handgun. He then shot the son, who was
already within close range of Petitioner, when he saw him draw his weapon and
start to point it at Petitioner upon seeing Petitioner shoot his father. The first
trespasser shot by Petitioner survived but the second died, and Petitioner was
charged with attempted murder and murder. A jury acquitted him of the murder
charge but hung on the attempted murder. A second jury at a retrial found him
guilty of the attempted murder. The Indiana Court of Appeals held that the retrial
and conviction for attempted murder was precluded by the Double Jeopardy Clause.
A federal district court found the Indiana Supreme Court’s subsequent decision
affirming the conviction unreasonable for purposes of 28 U.S.C. 2254(d), on the
ground that it addressed a “straw-man” argument instead of Petitioner’s actual
argument or the reasoning of the Court of Appeals, but nevertheless denied habeas
relief on an alternate ground not argued or presented by the parties. The Seventh
Circuit, in a Per Curiam opinion, did not mention the district court’s alternate
ground for denial, but knocked down the same “straw man” knocked down by the
Indiana Supreme Court, and then in one sentence dismissed Petitioner’s actual
argument without explanation as “implausible,” “based on state law,” and
“evidently found wanting” by the “state’s highest court.” The questions presented
are:
1. Whether, even after Wilson v. Sellers, 584 U. S. ___, 138 S. Ct. 1188 (2018),
when the last state court to decide a prisoner's federal claim explains its decision on
the merits in a reasoned opinion, but only gives reasons that knock down a “straw
man” not briefed or argued by the prisoner, a federal habeas court must still defer
to that state court's ultimate ruling, even though the last related state-court
decision that does provide a relevant rationale ruled for the prisoner.
2. Whether the Seventh Circuit properly applied the issue-preclusive aspect of
the Double Jeopardy Clause with the “realism and rationality” required by this
Court in Ashe v. Swenson, 397 U.S. 436 (1970), where the Seventh Circuit found the
State of Indiana was not forbidden by the Double Jeopardy Clause from attempting
to criminally convict Petitioner at a retrial for the first of two immediately
connected shootings, even though a prior jury at an earlier trial had already
acquitted Petitioner for the second shooting on the ground of self-defense, after
being instructed that a person cannot have acted in self-defense if he provoked,
instigated, or participated willingly in the violence.

TABLE OF CONTENTS

OPINIONS BELOW …………………………………………………………………… 1
JURISDICTION ……………………………………………………………………….. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ………… 2
INTRODUCTION ……………………………………………………………………… 3
STATEMENT OF THE CASE ……………………………………………………….. 5
A. Factual Background ………………………………………………………. 5
B. Proceedings Below ………………………………………………………… 8
REASONS FOR GRANTING THE WRIT …………………………………………. 18
I.

The Seventh Circuit has departed from the accepted and usual course
of judicial proceedings by declining to give any reasons for its denial of
habeas relief other than to call Coleman’s argument “implausible”…… 18
A. The Seventh Circuit’s departure can only be explained by a failure
to understand Yeager or by its mistaken belief that Coleman shot
Dye after he had fallen to the ground………………………………….. 19
B. Yeager has more support in the text of the Constitution than
Richardson…………………………………………………………………. 20

II.

Several Circuits, including the Seventh in Coleman’s case, have called
into question whether Wilson really means that they are not to give
deference to unreasonable state court decisions………………………….. 22

III.

Petitioner’s case presents an ideal vehicle for clarifying Wilson and
enforcing Yeager………………………………………………………………. 24
A. The decision below is wrong and the Indiana Court of Appeals was
right………………………………………………………………………….. 24
B. Coleman himself is worthy of relief…………………………………….. 33

CONCLUSION …………………………………………………………………………. 35

INDEX TO APPENDICES

APPENDIX A

Decision of United States Court of Appeals

APPENDIX B

Decision of United States District Court Denying Habeas Relief

APPENDIX C

Decision of United States District Court Altering Judgment

APPENDIX D Order of United States Court of Appeals Denying Rehearing
APPENDIX E

Decision of Indiana Supreme Court

APPENDIX F

Decision of Indiana Court of Appeals

APPENDIX G Excerpts from State Court Record

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Ashe v. Swenson, 397 U.S. 436 (1970) ……………………………………………… 4
Brady v. Pfister, 711 F.3d 818 (7th Cir. 2013) …………………………………….. 13
Currier v. Virginia, 138 S. Ct. 2144 (2018) ………………………………………… 5
Frantz v. Hazey, 533 F.3d 724 (9th Cir. 2008) ……………………………………. 24
Greenlaw v. United States, 554 U. S. 237 (2008) ………………………………… 27
Harrington v. Richter, 562 U.S. 86 (2011) ………………………………………… 13
Johnson v. Williams, 568 U.S. 289 (2013)………………………………………….. 13
Sheppard v. Davis, 967 F.3d 458 (5th Cir. 2020) …………………………………. 23
Thompson v. Skipper, 981 F.3d 476 (6th Cir. 2020) ……………………………… 23
Wood v. Milyard, 566 U. S. 463 (2012) ..……………………………………………. 27
Whatley v. Zatecky, 833 F.3d 762 (7th Cir. 2016) ………………………………… 13
Wilson v. Sellers, 584 U. S. ___, 138 S. Ct. 1188 (2018) …………………………. 3
Winfield v. Dorethy, 956 F.3d 442 (7th Cir. 2020) ………………………………... 23
Yeager v. U.S., 557 U.S. 110 (2009) …………………………………………………. 3
OTHER
George C. Thomas III and Mark Greenbaum, Justice Story Cuts the Gordian
Knot of Hung Jury Instructions, 15 Wm. & Mary Bill Rts. J. 893 (2007),
https://scholarship.law.wm.edu/wmborj/vol15/iss3/5 …………………………….. 22

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner Tyrus D. Coleman respectfully requests that a writ of certiorari issue
to review the judgment below.
OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix A to the
petition and is reported at 990 F.3d 1054. The opinions of the United States District
Court appear at Appendices B and C to the petition and are unpublished. The order
of the United States Court of Appeals denying rehearing appears at Appendix D to
the petition and is unpublished. The opinion of the highest state court to review the
merits appears at Appendix E to the petition and is reported at 946 N.E.2d 1160.
The opinion of the Indiana Court of Appeals appears at Appendix F to the petition
and is reported at 924 N.E.2d 659.
JURISDICTION
The date on which the United States Court of Appeals decided the petitioner’s
case was March 11, 2021. A timely petition for rehearing was denied by the United
States Court of Appeals on April 23, 2021, and a copy of the order denying
rehearing appears at Appendix D. As set forth in the Supreme Court’s July 19, 2021
order rescinding its orders of March 19, 2020 and April 15, 2020 relating to COVID19, the deadline to file a petition for a writ of certiorari remains extended to 150

1

days from the date of the order denying rehearing, to and including September 20,
2021. The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves a State criminal defendant’s rights under the Fifth and
Fourteenth Amendments to the United States Constitution. The Fifth Amendment
provides in relevant part:
. . . nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb . . . .
The Fourteenth Amendment provides in relevant part:
. . . nor shall any state deprive any person of life, liberty, or property, without
due process of law . . . .
This case also involves the application of 28 U.S.C. § 2254(d), which states:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.

2

INTRODUCTION
This case involves the application of two relatively recent decisions of this Court:

Yeager v. U.S., 557 U.S. 110 (2009) and Wilson v. Sellers, 584 U. S. ___, 138 S. Ct.
1188 (2018). Yeager holds that an apparent inconsistency between a jury's verdict of
acquittal on some counts and its failure to return a verdict on other counts does not
affect the acquittals' preclusive force under the Double Jeopardy Clause. Wilson
holds that, when the last state court to decide a prisoner's federal claim explains its
decision on the merits in a reasoned opinion, a federal habeas court simply reviews
the specific reasons given by the state court and “defers to those reasons if they are
reasonable,” but when the last state court to decide a prisoner's federal claim does
not explain its decision on the merits in a reasoned opinion, a federal habeas court
should "look through" that decision to the last related state-court decision that does
provide a relevant rationale and presume that the unexplained decision adopted the
same reasoning.
The Indiana Court of Appeals held that Yeager applied to bar Coleman’s retrial
for attempted murder and reversed his conviction. The Indiana Supreme Court then
vacated the decision of the Indiana Court of Appeals and affirmed Coleman’s
conviction. On federal habeas review, the district court found that, while the
Indiana Supreme Court’s written opinion gave reasons for its decision, those
reasons addressed a “straw man” rather than Coleman’s actual argument and were
therefore unreasonable. Nevertheless, the district court believed itself bound by this
Court’s precedents to defer to the Indiana Supreme Court’s decision, and to look for

3

reasons that “could have supported” the decision. It did so and denied Coleman’s
habeas petition. The Seventh Circuit, on the other hand,
Although this Court in Wilson described the approach to be taken when the last
state court to decide a prisoner's federal claim explains its decision on the merits in
a reasoned opinion as involving a “straightforward inquiry” that it had affirmed
“time and again,” since Wilson several Circuits have nevertheless expressed doubt
and confusion on this point. And indeed, from the language this Court used in

Wilson, it is not crystal clear whether this Court meant only to say that a federal
habeas court should not defer to unreasonable reasons, which seems too obvious for
words, or whether it meant also and primarily to say that a federal habeas court
should not defer to state-court decisions that are based on unreasonable reasons.
The Double Jeopardy Clause of the Fifth Amendment provides: "[N]or shall any
person be subject for the same offence to be twice put in jeopardy of life or limb."
However, most of this Court’s decisions interpreting this provision have “found
more guidance in the common-law ancestry of the Clause than in its brief text.”
Collateral estoppel, or issue preclusion, had already been an established rule of
federal criminal law for more than 50 years when this Court first determined and
held, in Ashe v. Swenson, 397 U.S. 436 (1970), that this established rule of federal
law is embodied in the Fifth Amendment guarantee against double jeopardy, and is
therefore enforceable against the States through the Fourteenth Amendment. First
developed even earlier in civil litigation, Mr. Justice Holmes explained its extension
and application to criminal law in these terms: "It cannot be that the safeguards of

4

the person, so often and so rightly mentioned with solemn reverence, are less than
those that protect from a liability in debt.” United States v. Oppenheimer, 242 U.S.
85, 87 (1916).
This Court most recently has formulated the rule of Ashe as follows: “To say that
the second trial is tantamount to a trial of the same offense as the first and thus
forbidden by the Double Jeopardy Clause, we must be able to say that ‘it would
have been irrational for the jury’ in the first trial to acquit without finding in the
defendant's favor on a fact essential to a conviction in the second.” Currier v.

Virginia, 138 S. Ct. 2144, 2150 (2018) (citation omitted).
STATEMENT OF THE CASE
A. Factual Background
Sometime in November 2006, Anthony Dye ("Dye") was robbed by Omar Sharpe
("Sharpe") and another man. During the robbery, the men took money and Dye's
gold chain. Because Dye knew that the two men were associated with a recording
studio owned by Coleman, he went to Coleman's studio, armed with a handgun for
protection, to talk to Coleman about the robbery. Although Coleman did not know
about the robbery, he apologized to Dye and offered to find out what he could.
Coleman was able to recover Dye's gold chain from Sharpe and called to arrange a
time to return it in December. At some point after retrieving the gold chain from
Coleman, Dye found out that Coleman had bonded Sharpe out of jail. Dye called
Coleman to express his displeasure with this and to tell him that if Dye found out

5

that Coleman had anything to do with the robbery, "there would be problems for
[Coleman]," which Coleman understood as a threat to his life. App. F. 1
In February 2007, Dye's son, Jermaine Jackson ("Jermaine"), heard about the
robbery and called Dye to inquire as to why Dye had not told him about it. Dye told
Jermaine that he had not mentioned it because he did not want Jermaine to get in
any trouble. On March 18, 2007, Dye received a call from Jermaine, who told Dye
that Sharpe was located at an apartment complex in Elkhart. Dye told Jermaine,
"Don't do nothing. I'm on my way." When Dye was on his way to the apartment
complex, Jermaine called back to let Dye know that Sharpe had already left. After
going to the shooting range with a friend, Jermaine had the friend drive him to
Coleman's recording studio because he said he had "to do something for his dad."
When they arrived at the studio, Jermaine saw another friend and asked this friend
to go get Sharpe. The friend went inside the studio and told Sharpe that Jermaine
wanted to see him. During this time, Jermaine had walked around to the entrance
of the studio. Id.
Coleman stepped outside and asked Jermaine what was going on, to which
Jermaine replied, "You already know." While Coleman was talking to Jermaine,
Sharpe walked outside to see what Jermaine wanted. Within seconds, Jermaine

The Petitioner’s Appendices are cited herein as “App. ___.” For items not included
in the Appendices, “Dkt. No. ___” refers to the district court docket number at which
the item appears, and “App. Dkt. No. ___” refers to the docket number in the
Seventh Circuit at which the item appears. A copy of the record from the state court
was filed in the district court under docket entry 19. For ease of reference, this
Petition cites to the transcript from Mr. Coleman’s 2008 trial as “Tr. 1” and the
transcript from Coleman’s 2009 trial as “Tr. 2.”
1

6

pulled a handgun out of his waistband and pointed it at Sharpe, who ran back into
the studio. Jermaine chased Sharpe and a struggle occurred between Jermaine, who
was trying to push the studio door open, Sharpe, who was closing the door to
prevent Jermaine from entering, and Coleman, who was trying to keep Jermaine
from raising the gun at anyone. Eventually, Sharpe and Coleman were able to get
the studio closed, leaving Jermaine and Coleman outside. Jermaine returned the
handgun to the waistband of his pants. Id.
Coleman continued to attempt to calm Jermaine down and to ask him to leave.
Jermaine then began calling people on his cell phone and asking them to come to
the studio, despite Coleman's requests not to do so. Jermaine called Dye, who was
riding around with his girlfriend, and told Dye to come over to the studio
immediately. Although Jermaine did not tell him so, Dye had a "gut feeling" that
Sharpe was at the studio. Dye retrieved a handgun from the engine of his car,
where he stored it, and had his girlfriend drive him over to Coleman's recording
studio. At some point during this time, Coleman retrieved a handgun from inside of
the studio, which he held in his hand for the remainder of the confrontation.
Coleman also called Jermaine's cousin and friend, Otis Jackson ("Otis"), and asked
him to come over to try to calm Jermaine down. Id.
During this time, Coleman's son had been playing basketball in the front of the
house. Coleman told his son to go inside of the studio. The son attempted to leave
the studio, and Coleman, motioning with his handgun, ordered the boy back in the
studio. When Otis arrived, he tried to get Jermaine to calm down by telling him it

7

"wasn't worth it," that there were kids around, and that he should just leave.
Coleman also stated that his son was inside of the studio and that Jermaine should
respect that. Jermaine replied, "F**k that. [Sharpe] didn't think about that sh*t
when he did this sh*t to my Daddy." Jermaine also stated that he was going to "beat
[Sharpe's] ass" and "pop him." Id.
Shortly thereafter, Dye arrived and entered the backyard area near the studio.
Dye held a handgun in his right hand, down at his side, and pointed at the ground.
Otis testified that Dye appeared "pretty aggressive" when he walked into the
backyard and looked "like he was there to take care of some business." When Dye
walked toward Jermaine, he saw that Coleman had a gun in his hand and was
standing near the studio door. Dye then stated, "F**k all that sh*t. Where the
n**ger at," referring to Sharpe. As Dye came within feet of him, Coleman raised his
gun and shot Dye twice. Jermaine then pulled out his handgun and began shooting
at Coleman; Coleman turned and shot at Jermaine. The entire exchange of gunfire
lasted three seconds. Jermaine died as a result of his injuries, but Dye survived. Id.
B. Proceedings Below
The State charged Coleman with murder for killing Jermaine and attempted
murder, a Class A felony, for shooting Dye, who survived his injuries. On February
11-13, 2008, a jury trial was held, at which Coleman argued that he acted in selfdefense when he shot Jermaine and Dye. App. F at 5.
The entire confrontation outside Coleman’s studio between Coleman, Jermaine
and Dye was captured on video by a surveillance camera. This video was shown to

8

the jury. The video shows that, after Coleman raised his gun and pointed it at Dye,
Dye ducked (while raising his own gun and pointing it at Coleman) and fell forward
to the ground and landed on his stomach, after which he apparently lost
consciousness and did not move. The forensic evidence presented at trial showed
that Dye had been shot twice – once in the head area and once in the upper torso. It
also contradicted the clearly erroneous findings by both the Indiana Supreme Court
and the Seventh Circuit that Coleman had shot Dye after he was on the ground.
App. G; Tr. 1 at 89; Tr. 2 at 189-90, 548.
The jury was instructed as follows as to the justification of self-defense:
It is an issue whether the Defendant acted in self-defense.
A person may use reasonable force against another person to protect himself
or a third person from what he reasonably believes to be the imminent use of
unlawful force.
A person is justified in using deadly force, and does not have a duty to
retreat, only if he reasonably believes that deadly force is necessary to
prevent serious bodily injury to himself or a third person or the commission of
a forcible felony.
However, a person may not use force if:
He is committing a crime that is directly and immediately connected to the
confrontation;
He provokes a fight with another person with intent to cause bodily injury to
that person; or
He has willingly entered into a fight with another person or started the fight,
unless he withdraws from the fight and communicates to the other person his
intent to withdraw and the other person nevertheless continues or threatens
to continue the fight.
The State has the burden of proving beyond a reasonable doubt that the
defendant did not act in self-defense.
9

App. F 8.
At the conclusion of the trial, the jury found Coleman not guilty as to murder but
was unable to reach a verdict as to attempted murder. The trial court set Coleman's
attempted murder charge for another trial. On November 10, 2008, Coleman filed a
motion to dismiss the attempted murder charge by reason of collateral estoppel.
After a hearing, the trial court denied the motion. Coleman was retried on the
attempted murder charge on March 16-18, 2009, and the jury found him guilty. He
was sentenced to an aggregate sentence of forty-five years.
In reversing Coleman’s conviction based on the doctrines of double jeopardy and
collateral estoppel and holding that Coleman’s motion to dismiss should have been
granted, the Indiana Court of Appeals reasoned that, since the jury in the first trial
must have determined that Coleman acted in self-defense when he shot Jermaine in
order to find him not guilty as to the murder of Jermaine, the jury also necessarily
decided, based on instructions given to them reflecting the principle that a person
cannot have acted in self-defense if he provoked, instigated, or participated willingly
in the violence, that Coleman's use of force against Dye was also not a crime. App. F
7-8. 2

This principle existed in the case law prior to the enactment of any self-defense
statute. Banks v. State, 276 N.E.2d 155, 158 (Ind. 1971); Runyan v. State, 57 Ind.
80, 84 (1877) (citing Wharton on Criminal Law for the proposition that the right of
self-defense “is founded on the law of nature; and is not, nor can be, superseded by
any law of society”).
2

10

The Indiana Supreme Court granted transfer, thereby vacating the opinion of
the Court of Appeals, and then affirmed Coleman’s conviction in its own written
opinion issued on May 18, 2011. App. E. But, as the federal district court
recognized, the Indiana Supreme Court in its written opinion “wholly misconstrued”
Coleman’s actual argument on the collateral estoppel issue and ignored the
reasoning of the Court of Appeals. Furthermore, the Indiana Supreme Court’s
description of the facts varied materially from that of the Court of Appeals and was
contrary to the evidence presented at trial. Most significantly, the Indiana Supreme
Court falsely implied that Coleman shot Dye after he had already fallen to the
ground and was no longer a threat: “As Dye stepped in front of Coleman, Coleman
raised his gun and fired at Dye, who immediately fell to the ground. Coleman then
shot Dye a second time.” But the testimony of Dr. David VanRyn (misspelled
VanRyan in the transcript of the first trial) at both trials had clearly established
that the shot to the head area had entered Dye’s body from the front and exited the
back, and that, although the path of the shot to the upper torso seemed to Dr.
VanRyn “less obvious” than the shot to the head area, the wound on the chest
appeared more uniform and more regular than the wound on the back, which
suggested to Dr. VanRyn that the entrance wound was on the chest and the exit
wound was on the back. App. G; Tr. 1 at 89; Tr. 2 at 189-90, 548.
After the Indiana Supreme Court’s decision affirming Coleman’s conviction,
Coleman filed a petition for post-conviction relief in State court, alleging ineffective
assistance of trial counsel. Although Coleman’s lead counsel testified at the post-

11

conviction hearing that his trial counsel had performed deficiently, the trial court
denied his post-conviction claims, the Indiana Court of Appeals affirmed, and the
Indiana Supreme Court denied transfer.
Coleman then filed pro se a habeas corpus petition in federal district court,
raising as Ground One the claim that his conviction for Attempted Murder violates
the doctrine of issue preclusion embodied in the Fifth Amendment guarantee
against double jeopardy, and as Ground Two the claim that he was denied the
effective assistance of trial counsel in violation of the Sixth and Fourteenth
Amendments to the U.S. Constitution. Dkt. No. 1 at 3.
The federal district court denied the habeas corpus petition, and initially denied
a certificate of appealability pursuant to Section 2254 Habeas Corpus Rule 11, but
after considering the arguments presented by Coleman, now represented by pro
bono counsel, in a Rule 59(e) motion to alter or amend the judgment, granted a
certificate of appealability “on the issues of the proper standard of review for the
issue preclusion claim and whether, under that standard, the issue preclusion claim
entitles Coleman to habeas relief.” App. C at 8.
The federal district court, as noted above, found:
Significantly, the Indiana Supreme Court’s reasoning, though internally
sound, wholly misconstrues Coleman’s argument and omits any mention of
the reasoning of the Court of Appeals of Indiana. Indeed, Coleman’s
argument regarding issue preclusion remained consistent at each relevant
stage of litigation from his motion to dismiss to the instant habeas petition,
and there is no apparent explanation as to why the Indiana Supreme Court
declined to address it. This discrepancy raises the question of which standard
of review I should apply to the Indiana Supreme Court’s decision.
App. B at 9.
12

Based on Harrington v. Richter, 562 U.S. 86, 98 (2011), Johnson v. Williams, 568
U.S. 289, 293 (2013), Brady v. Pfister, 711 F.3d 818, 826 (7th Cir. 2013), and

Whatley v. Zatecky, 833 F.3d 762, 775 (7th Cir. 2016), the district court concluded
that it must apply the deferential standard of review described in Harrington,
rather than de novo review, to the judgment of the Indiana Supreme Court, even
though the opinion of the Indiana Supreme Court did not address the substance of
Coleman’s argument. That is, the district court concluded that, since the Indiana
Supreme Court’s decision, although purporting to give reasons for its decision, was
in fact “unaccompanied by an explanation,” it must ask not only what arguments or
theories in fact supported the state court’s decision, but also what arguments or
theories “could have supported” the state court’s decision. Id. at 9-10. Applying this
standard of review from Harrington, the district court further concluded that an
argument that the jury in the first trial could have based its acquittal not on selfdefense but on a lack of proof beyond a reasonable doubt that Coleman acted
“knowingly” when he shot Jermaine “could have supported” the Indiana Supreme
Court’s decision, id. at 12, even though (1) the Indiana Supreme Court’s decision
was not in fact based on this argument or theory, (2) the State had not made this
argument either on appeal in the State courts or in its response to Coleman’s
habeas corpus petition in federal court, (3) the State had expressly conceded at oral
argument before the Indiana Supreme Court that the jury could not have rationally
based its acquittal on any ground other than self-defense.

13

In its Opinion and Order on Coleman’s Rule 59(e) motion to alter or amend the
judgment, it which it altered its judgment by granting a certificate of appealability
on the issue preclusion claim, the district court reiterated that the Indiana Supreme
Court’s decision “did not meaningfully address Coleman’s argument or the
reasoning of the lower appellate court,” and presented the district court with an
“unusual straw-man situation.” It reiterated its belief that the fact that the Indiana
Supreme Court had shot down a straw-man instead of Coleman’s actual argument,
although making it a case in which “the last state court to render a decision offers a
bad reason for its decision,” nevertheless still required under Seventh Circuit
precedent the highly-deferential standard of review from Harrington. App. C at 4.
In response to Coleman’s argument that that Seventh Circuit precedent was flawed
and that the district court should have applied a de novo standard of review, the
district court judge stated that even if he had applied the de novo standard of
review he would not have granted habeas relief based on the issue preclusion claim,
based on his belief that a rational jury could have reasonably doubted that Coleman
“knowingly” shot Jermaine when he shot him, and could have based its acquittal on
the “knowingly” element of Attempted Murder rather than self-defense. Id. at 5. But
in addition, the district judge now added:
Furthermore, the respondent suggested yet another alternative rationale for
the acquittal of Coleman. Recall that Coleman’s issue preclusion argument
requires the assumption that the jury interpreted the self-defense
instruction’s reference to “the confrontation” as the shooting of Jackson
separate and apart from the shooting of Dye. The respondent argued that the
jury may have rationally interpreted “the confrontation” as encompassing the
events from the time Jackson arrived at Coleman’s recording studio until the
shooting of Jackson. This would also include the shooting of Dye. Under this
14

interpretation, the jury could have found that Coleman did not commit any
crime that was “directly and immediately connected to the confrontation”
without consideration of whether the shooting of Dye was a crime.
Significantly, the jury was presented with a single self-defense instruction for
both charges; the jury instructions did not define “confrontation”; and the two
shootings occurred over the course of three seconds. Considering the
foregoing, the jury could have rationally interpreted “the confrontation” as
encompassing both shootings and then rationally acquitted Coleman based on
this broader interpretation.
Id. at 6-7.
Coleman had refuted that argument, as well as the State’s only other argument
in the district court (which the district court apparently did not credit), in his
traverse as follows:
The entire substance of the Respondent’s argument that Coleman’s retrial
did not violate double jeopardy protections is contained in this assertion on
pages 12-13 of his Return: “To read the instruction as Coleman does requires
two unsupported assumptions: that the ‘crime’ must only be the shooting of
Dye, and that the ‘confrontation’ must only be Coleman’s shooting of
Jermaine.” Everything else in the Respondent’s argument is beside the point
and obfuscation. But even this assertion, although finally “to the point,” is,
like the decision of the Indiana Supreme Court the Respondent tries to
defend, completely unreasonable.
Coleman does not assume that “the ‘crime’ must only be the shooting of Dye.”
Rather, the instruction obviously means a person may not legally use force if
he is committing any “crime that is directly and immediately connected to the
confrontation.” The jury’s determination that Coleman’s use of force against
Jermaine was justified therefore meant that the jury by its acquittal had
necessarily decided that nothing Coleman had done that was directly and
immediately connected to his confrontation with Jermaine was a crime,
including (but not necessarily limited to) the shooting of Dye. Therefore,
expanding what this word “crime” may refer to, as the Attorney General
wishes to do, if anything serves only to expand, not diminish, the exculpatory
implications of the jury’s acquittal, in Coleman’s favor.
Nor does Coleman necessarily assume that “the ‘confrontation’ must only be
Coleman’s shooting of Jermaine,” although this “assumption” appears to be
the only intelligent way to understand this word in the context of the
instruction. It is only natural to “assume” that the very use of force the
15

defendant is seeking to justify on the grounds of self-defense constitutes one
half of the “confrontation” referred to in the self-defense instruction, and that
the very force or threat of force which the defendant argues put him in fear
and justified his own use of force constitutes the other half of the
“confrontation” referred to in the self-defense instruction. One could
conceivably expand what the word “confrontation” may refer to, e.g., to
encompass “the entire argument at Coleman’s property,” as the Respondent
suggests, but again, if anything this would serve only to expand, not
diminish, the exculpatory implications of the jury’s acquittal, in Coleman’s
favor. It would be completely unreasonable to construe this expansive
reading of “confrontation” as somehow hollowing out and removing from the
jury’s consideration the violent confrontation at the core of the expanded
confrontation, when whether the defendant’s half of the violent confrontation
is legally justified is precisely what the jury instruction purports to help the
jury decide.
If this seems complicated, it is only because the Respondent is trying to make
it complicated, and apparently hasn’t thought things through. The reasoning
of the Indiana Court of Appeals in determining that issue preclusion barred
Coleman’s retrial was simple and clear. It was not only logical, but was also
in accordance with common sense, justice, and both the letter and the spirit
of the law of double jeopardy, issue preclusion, and self-defense. Since then,
neither the Indiana Supreme Court nor the Respondent has offered anything
qualifying as “reason” to support their strange opposition to the reasoning
and holding of the Indiana Court of Appeals.
Dkt. No. 10 at 10-12.
In the Seventh Circuit, Coleman filed a motion to expand the certificate of
appealability to include his claim that he had been denied the effective assistance of
trial counsel. The Seventh Circuit granted the motion more than a year later,
finding that Coleman had made a substantial showing of the denial of a
constitutional right for purposes of 28 U.S.C. § 2253(c)(2).
Nevertheless, after briefing and oral argument, a panel of the Seventh Circuit
affirmed the district court in a Per Curiam opinion on March 11, 2021. App. A.
Relying on the summary of the facts of the case in the Indiana Supreme Court’s

16

opinion, because the district court had reviewed the surveillance video and
“concluded that the Indiana Supreme Court had narrated the facts accurately,” and
in contrast to the Indiana Court of Appeals’ statement of facts, the Per Curiam
opinion of the Seventh Circuit falsely claims that “Coleman . . . shot Dye twice,
including once after he was on the ground.” (Emphasis in original.) Id. at 4. This is
one of the “facts” the panel said it was “scarcely necessary to do more than reread”
in order to conclude that the acquittal on the murder charge in the first trial did not
establish that Coleman’s shooting of Dye was not a crime. Id.
Although the federal district court had granted a certificate of appealability on
the issue of the proper standard of review when the last state court to decide a
prisoner's federal claim explains its decision on the merits in a reasoned opinion but
the specific reasons given by the state court are addressed not to the prisoner’s
actual argument but to a “straw-man,” the Seventh Circuit panel concluded that
they “need not resolve that debate, because it does not require even an ounce
of deference to conclude that Coleman’s acquittal on the murder charge does not
establish that he acted in self-defense when shooting Dye.” Id. at 3. But in
explaining that conclusion, the Seventh Circuit again followed the Indiana Supreme
Court by addressing not Coleman’s actual argument or the reasoning of the Indiana
Court of Appeals, but only the same “straw-man” addressed by the Indiana
Supreme Court. In fact, the Seventh Circuit spent only the following single sentence
of its opinion “addressing” – or rather dismissing out of hand – Coleman’s actual
argument: “Coleman tries to tease a form of retroactive self-defense toward Dye

17

from the jury instructions about crimes committed close in time, but we find the
argument implausible—and it is at all events an argument based on state law that
the state’s highest court evidently found wanting.” Id. at 4.
REASONS FOR GRANTING THE WRIT
I.

The Seventh Circuit has departed from the accepted and usual course
of judicial proceedings by declining to give any reasons for its denial of
habeas relief other than to call Coleman’s argument “implausible.”
Although this Court only relatively rarely engages in “error correction,” it should

do so when a Circuit Court, following the issuance of a Certificate of Appealability,
simply and utterly fails to provide a federal habeas petitioner with the meaningful
and reasoned review to which he is entitled, especially after the last reasonable
state court decision has determined that his constitutional rights have been
violated. In Coleman’s case, the Indiana Court of Appeals in March of 2010
determined that a jury “necessarily decided” in February of 2008 that Coleman is
innocent of the charge for which he is serving a forty-five year prison sentence, and
since then no federal or state court has provided him with a reasonable explanation
for why he is still in prison, if indeed they deigned to provide him with an
explanation at all. This Court is Coleman’s last resort.
The Seventh Circuit decision was unreasonable in the same ways the Indiana
Supreme Court decision was unreasonable. The Seventh Circuit said Coleman was
not entitled to habeas relief even under de novo review, but then circularly used the
fact that the Indiana Supreme Court had evidently found Coleman’s argument
“wanting” as its only “reason” for rejecting Coleman’s argument.

18

A. The Seventh Circuit’s departure can only be explained by a failure to
understand Yeager or by its mistaken belief that Coleman shot Dye after
he had fallen to the ground.
The fact that the Indiana Supreme Court “evidently found wanting” Coleman’s
issue preclusion argument, and that the Seventh Circuit found it “implausible,”
without either court bothering to provide any reasons whatsoever for these
momentous conclusions, necessarily raises the suspicion that both of these courts
simply didn’t understand or didn’t appreciate this Court’s holdings in Ashe and
especially Yeager. Indeed, at oral argument before the Indiana Supreme Court, the
justice who would go on to write that Court’s written opinion asked Coleman’s
appellate counsel:
Doesn’t Yeager tell us that the acquittal is a non-event for purposes of
determining what the jury necessarily decided. I mean they said that, it
seems to me, in no uncertain terms, that when you’re analyzing this, the
thing you don’t look at is the acquittal. You look at only what the jury did
decide, not what they did not.
The district judge asked, in response to Coleman’s argument that the jury from
the first trial acquitted him on the charge for the murder of Jackson based on the
self-defense instruction, and that this means that this jury necessarily found that
he did not commit a crime by shooting Dye, “why then did the jury not acquit him of
the attempted murder?”
One important fact that could not be seen on the security footage, but which was
established in Coleman’s favor (at least by a preponderance of the evidence) by the
testimony of the doctor who had treated Dye at the hospital – the fact that,
although Coleman still had his gun pointed at Dye after he fell to the ground when

19

Jermaine redrew his own weapon, Coleman did not shoot Dye again after he fell to
the ground – was inexplicably determined to be the opposite of what it was. This
cast the whole complexion of Coleman’s actions on the day in question in a false
light, and may well explain the short shrift given to his case by the Seventh Circuit,
which merely regurgitated the Indiana Supreme Court’s misstatement of this fact.
The Indiana Supreme Court’s own misstatement of this fact is harder to explain,
however. It apparently made it up out of thin air, as it was not to be found in the
Indiana Court of Appeals’ statement of facts, and even the prosecution in its closing

argument at the second trial acknowledged that Coleman shot Dye the second time
as he fell. 548.
B. Yeager has more support in the text of the Constitution than Richardson.
A plurality of this Court in Currier appeared to “question[] whether issue
preclusion ‘really ... exist[s] in criminal law,’” on textualist grounds. Petitioner
would respectfully suggest that if this Court is indeed inclined to call into question

Ashe and its progeny it should first revisit whether the text of the Double Jeopardy
Clause as originally meant really allows a retrial after a hung jury, as this Court
held it does in Richardson v. United States, 468 U.S. 317 (1984), despite the
“textual appeal” of the argument that it does not recognized by the majority in

Yeager. Justice Scalia also appeared to recognize the textual appeal of this
argument in his dissent:
As an historical matter, the common-law pleas could be invoked only once
“there ha[d] been a conviction or an acquittal — after a complete trial.” Crist
v. Bretz, 437 U.S. 28, 33, 98 S.Ct. 2156, 57 L.Ed.2d 24 (1978). This Court has
extended the protections of the Double Jeopardy Clause by holding that
20

jeopardy attaches earlier: at the time a jury is empanelled and sworn. Id., at
38, 98 S.Ct. 2156. Although one might think that this early attachment would
mean that any second trial with a new jury would constitute a second
jeopardy, the Court amended its innovation by holding that discharge of a
deadlocked jury does not “terminat[e] the original jeopardy,” Richardson v.
United States, 468 U.S. 317, 325, 104 S.Ct. 3081, 82 L.Ed.2d 242 (1984).
Under this continuing-jeopardy principle, retrial after a jury has failed to
reach a verdict is not a new trial but part of the same proceeding.
This Court explained in Crist v. Bretz the deep historic justification for what
Justice Scalia called “its innovation” of attaching jeopardy at the time a jury is
empanelled and sworn:
The reason for holding that jeopardy attaches when the jury is empaneled
and sworn lies in the need to protect the interest of an accused in retaining a
chosen jury. . . . It is an interest with roots deep in the historic development
of trial by jury in the Anglo-American system of criminal justice. Throughout
that history there ran a strong tradition that once banded together a jury
should not be discharged until it had completed its solemn task of
announcing a verdict.
Justice Powell, in his dissenting opinion in Crist, described this common-law
rule forbidding discharge of the jury until it had announced a unanimous verdict as
“a rule that we well might have come to regard as an aspect of due process if it had
not been absorbed in this country by the Double Jeopardy Clause.”
[T]he evidence from the colonies is that juries always did return a verdict. We
know, for example, that no mistrials appeared in New Jersey criminal cases
from 1749-57. This is not surprising because mistrials were not a recognized
outcome in Blackstone' s Commentaries. If an eighteenth century English
jury did not reach a unanimous verdict before the judge had to leave for the
next town on his circuit, he could "carry them round the circuit from town to
town in a cart.” We suspect not many juries would refuse to reach a
unanimous verdict if the alternative was to be kept together and transported
by cart from town to town. Occasionally, as we will see, a brave jury would
refuse to reach a verdict, but these were outliers in the common law system.
The first report of a mistrial for failure to reach a verdict in an American
court was 1807.
21

George C. Thomas III and Mark Greenbaum, Justice Story Cuts the Gordian Knot
of Hung Jury Instructions, 15 Wm. & Mary Bill Rts. J. 893, 897 (2007),
https://scholarship.law.wm.edu/wmborj/vol15/iss3/5.
It appears, therefore, that the real judicial “innovation” in the law that occurred
after the establishment of the Constitution was not in holding that jeopardy
attached prior to the jury’s verdict, but in relaxing the rule forbidding (as a matter
of Due Process if not the Double Jeopardy Clause) the discharge of the jury until it
reached a verdict. This innovation might very well have been required by the Due
Process rights of the jurors themselves, but it nevertheless could not justify relaxing
the requirements of the Double Jeopardy Clause, the text of which, as both the
majority and Scalia’s dissent in Yeager appear to acknowledge, seems to mean that
“any second trial with a new jury would constitute a second jeopardy.”
If this Court is not willing to reexamine Richardson despite its reliance on “its
own sources and logic,” and on Justice Holmes' aphorism that "a page of history is
worth a volume of logic," rather than on the text of the Constitution, then to be
consistent it should also at least continue to adhere to Ashe, and moreover take to
heart Yeager’s dictum that, if the consideration of hung counts had any place in the
issue-preclusion analysis, “the fact that petitioner has already survived one trial
should be a factor cutting in favor of, rather than against, applying a double
jeopardy bar.”
II.

Several Circuits, including the Seventh in Coleman’s case, have called
into question whether Wilson really means that they are not to give
deference to unreasonable state court decisions.

22

This Court in Wilson v. Sellers seemed to make clear, as it had already held in
earlier cases such as Panetti v. Quarterman, 551 U.S. 930 (2007), that if the specific
reasons given by a state court for rejecting a state prisoner's federal claims are
“unreasonable,” then “A federal court must then resolve the claim without the
deference AEDPA otherwise requires,” that is, de novo. Nevertheless, “[i]n the wake
of Wilson, courts have grappled with whether AEDPA deference extends only to the
reasons given by a state court (when they exist), or instead applies to other reasons
that support a state court's decision.” Thompson v. Skipper, 981 F.3d 476 (6th Cir.
2020). The Fifth Circuit has “observe[d], without deciding, that it is far from certain
that Wilson overruled sub silentio the position—held by most of the courts of
appeals—that a habeas court must defer to a state court's ultimate ruling rather
than to its specific reasoning.” Sheppard v. Davis, 967 F.3d 458 (5th Cir. 2020). The
Eleventh Circuit has issued conflicting opinions, while the Seventh Circuit has
issued an opinion which conflicts with itself. Compare Winfield v. Dorethy, 956 F.3d
442, 454 (7th Cir. 2020) ("Having found the state court's `specific reasons' for
denying relief, the next question is whether that explanation was reasonable
thereby requiring our deference." (quoting Wilson, 138 S. Ct. at 1192)), with

Winfield, 956 F.3d at 462 n.2 (citing Seventh Circuit precedent holding that a
petitioner is not entitled to de novo review "simply because the state court's
rationale is unsound," and that a federal habeas court must “defer to the state
court's judgment (notwithstanding its reasons)”, but not deciding “if or how this

23

standard might apply” to Winfield, since he was not entitled to relief “even under de
novo review”).
In its judgment below, the Seventh Circuit, as in Winfield, appears to treat as
still open the question settled by Wilson, but ultimately, in effect if not expressly, it
decides that question in a way that conflicts with Wilson, by giving as its only
reason for rejecting Coleman’s argument the fact that “the state's highest court
evidently found [Coleman’s argument] wanting,” even though the specific “reasons”
given by the state’s highest court for rejecting Coleman’s argument were, as the
district court found, patently unreasonable.
The Ninth Circuit recognized back in Frantz v. Hazey, 533 F. 3d 724, 735 (9th
Cir. 2008), that “it is now clear [from Panetti, 127 S. Ct. at 2858] both that we may
not grant habeas relief simply because of § 2254(d)(1) error and that, if there is such
error, we must decide the habeas petition by considering de novo the constitutional
issues raised.” It noted that “[t]he Supreme Court has not fully explained, however,
why that is true,” and went on to provide such an explanation, “as the underlying
reasoning may prove useful to habeas courts applying these principles.”
III.

Petitioner’s case presents an ideal vehicle for clarifying Wilson and
enforcing Yeager.
A. The decision below is wrong and the Indiana Court of Appeals was right.

If Ashe and Yeager are respected and followed, it is clear that the Indiana Court
of Appeals was correct in concluding that Coleman’s retrial for attempted murder
was precluded by his acquittal on the murder charge in the first trial. Indeed, it
would seem that Wilson’s mandate to “look through” to the last reasoned state court
24

decision when the state’s highest court has not given a reason for its decision, would
warrant this Court in giving special deference to the reasoning and conclusion of the
Indiana Court of Appeals, in what the federal district court called this “unusual
straw-man situation” created by the Indiana Supreme Court.
The only actual reasons offered by any federal or state court below for rejecting
Coleman’s actual argument and the reasoning of the Indiana Court of Appeals were
those offered by the federal district court: (1) maybe the jury believed that the State
hadn’t proved the “knowingly” element of murder beyond a reasonable doubt, or (2)
maybe the jury thought that the word “confrontation” in its jury instructions
referred not to the violent confrontation between Coleman and Jackson that
immediately followed upon Coleman’s shooting of Dye, but instead to the entire
chain of events in Coleman’s backyard from the time Jackson arrived at Coleman’s
recording studio through the shooting of Jackson. (The latter reason was only
offered by the district court in its ruling on Coleman’s motion to alter or amend the
judgment.) 3

Judge Darden in his dissent from the majority opinion in the Court of Appeals
stated that he was “of the opinion that the testimony at trial and the video evidence
could support the reasonable inference that Coleman was not in fear for his life as
Dye was walking past him, while also supporting the reasonable inference that
Coleman was in fear for his life when facing Jermaine’s drawn weapon.” App. F at
10. However, this completely missed the point of the majority’s analysis, in the
same way that the Indiana Supreme Court would do: A rational jury could not have
believed both of those things and still acquitted Coleman of the murder of Jermaine.
If Coleman was not in fear for his life when he shot Dye, then pursuant to the jury
instructions given at trial a rational jury would not have excused Coleman for the
shooting of Jermaine, regardless of whether Coleman was in fear for his life when
Jermaine drew his weapon upon seeing Coleman shoot Dye.
3

25

The entire substance of the Respondent’s argument that Coleman’s retrial did
not violate double jeopardy protections is contained in this assertion on pages 12-13
of his Return: “To read the instruction as Coleman does requires two unsupported
assumptions: that the ‘crime’ must only be the shooting of Dye, and that the
‘confrontation’ must only be Coleman’s shooting of Jermaine.”
Although the Seventh Circuit said it agreed with the district judge’s analysis of
Coleman’s claim that he was denied his constitutional right to the effective
assistance of trial counsel, it did not say it agreed with the district judge’s analysis
of Coleman’s Double Jeopardy claim. And indeed, the Seventh Circuit appeared to
take for granted that the acquittal could only have been based on self-defense, as
the State itself expressly admitted at oral argument before the Indiana Supreme
Court, leaving by the wayside and unmentioned the district judge’s hypothesis that
a jury could have rationally doubted that Coleman was aware that he was shooting
Jermaine six times and acquitted him on that basis.
The State conceded at oral argument before the Indiana Supreme Court on
direct appeal that the acquittal at the first trial could only have been on the
grounds of self-defense. See Oral Arguments Online, September 16, 2010, at 23:35,
http://mycourts.in.gov/arguments/. Moreover, in the district court the Respondent
acknowledged that the Indiana Supreme Court “accepted that the jury’s acquittal of
Coleman on the charge of murdering Jermaine during the first trial was based on
the jury’s belief that Coleman acted in self-defense with respect to Jermaine,” Dkt.

26

No. 7 at 11, and nowhere in the district court argued that it could have been based
on anything else.
In Wilson v. Sellers, 584 U. S. ___ (April 17, 2018), the dissent cited Wood v.

Milyard, 566 U. S. 463, 471-73 (2012), for the proposition that a federal court is not
required to “’imagine’ its own arguments for denying habeas relief,” which “neither
the parties before it nor any lower court has presented.” Wood, in turn, cited

Greenlaw v. United States, 554 U. S. 237, 243-44 (2008), for the proposition that “a
federal court does not have carte blanche to depart from the principle of party
presentation basic to our adversary system.” And in Greenlaw this Court stated:
In our adversary system, in both civil and criminal cases, in the first instance
and on appeal, we follow the principle of party presentation. That is, we rely
on the parties to frame the issues for decision and assign to courts the role of
neutral arbiter of matters the parties present. To the extent courts have
approved departures from the party presentation principle in criminal cases,
the justification has usually been to protect a pro se litigant's rights.
When the State conceded in its argument to the Indiana Supreme Court, and to
the district court, that the jury could not have rationally based the acquittal on
anything other than self-defense, it had available to it Coleman’s original Motion to
Dismiss By Reason of Collateral Estoppel, in which the notion that the acquittal
could have been based on the “knowingly” element of murder was first entertained
and rejected, the State’s Response to the Motion, Coleman’s Reply to the Response,
the transcript of the hearing on the Motion, and Coleman’s “additional authorities”
letter filed a few days after the hearing on the Motion. This letter is reproduced in
Appendix G to this Petition to show that the State’s concession at oral argument in
the Indiana Supreme Court was well-informed and well-advised. Having
27

presumably read and considered all of this, the State conceded in its argument to
the Indiana Supreme Court that the jury could not have rationally based the
acquittal on anything other than self-defense, and did not argue otherwise to the
district court. The district court erred by veering from the principle of party
presentation to find otherwise in its Opinion and Order.
The sound policy behind the principle of party presentation is evident in this
case. If the State had made the argument in the district court, Coleman would have
had the opportunity to respond to it by developing at length the arguments made in
his “additional authorities” letter. The fact that the State did not make the
argument, and conceded at oral argument before the Indiana Supreme Court that
self-defense was the only rational basis for the acquittal, signifies that the State
recognized that such an argument would have been meritless. The Seventh Circuit
evidently didn’t think much of it either.
That leaves the “confrontation” argument, as the only reason offered by any
federal or state court, which the Seventh Circuit didn’t bother to endorse either.
The Respondent also argued in the Seventh Circuit, as the State had argued on
direct appeal in the Indiana courts, that the jury could have thought that, even if
Coleman committed a crime by his shooting of Dye, Coleman was no longer
"committing" that crime when he shot Jackson or could have thought that the crime
was not "directly and immediately connected” to the confrontation with Jackson.
App. Dkt. No. 25 at 23. Coleman preemptively refuted those arguments in the legal
memorandum attached to his federal habeas corpus petition, and the Respondent

28

did not advance them in the district court. For that reason, this Court should not
consider these arguments here either. But the fact that the Respondent did not
advance them in the district court, and that the Seventh Circuit did not cite them as
a basis for finding Coleman’s argument “implausible,” underscores their lack of
merit.
It must also be noted that these are precisely the kind of “hypertechnical”
arguments precluded by the “realism and rationality” demanded by Ashe. It is
inconceivable, for example, that any defense attorney would be foolish enough and
have the nerve to make the following argument to a judge or jury: “Yes, my client
was attempting to rob the store and shot the clerk, but when the clerk’s son then
pulled a gun from behind the counter and pointed it at my client, my client was no
longer ‘committing’ the robbery after he turned from the clerk and towards the son,
even though my client still had his gun pointed at the clerk when the clerk’s son
pulled the weapon from behind the counter, and therefore it was self-defense when
my client shot the son, and you should acquit him. Also, Jury, my client’s robbery
and shooting of the clerk was not ‘directly and immediately connected to [my
client’s] confrontation’ with the clerk’s son.”
No defense attorney, no matter how desperate, would ever make such a
ludicrous argument for an acquittal to a judge or jury, and yet the Attorney
General’s only argument for avoiding the application of issue preclusion in
Coleman’s case was the suggestion that the jury might have been thinking along

29

just these lines when it acquitted Coleman of murder. That is not realism and
rationality.
Yet even a “hypertechnical” analysis of the language of the jury instructions,
though not appropriate under Ashe, if carefully followed to the bottom, shows that
the jury at the first trial, by acquitting Coleman of the murder charge, necessarily
decided that Coleman’s shooting of Dye was also not a crime.
A rational juror would have understood that “the confrontation” at issue under
the self-defense jury instruction is the confrontation comprising on one side the use
of force the defendant contends was justified by self-defense and on the other side
the threat the defendant contends caused him to fear for his life or the lives of
others and justified his use of force. In this case, the “confrontation” at issue was
Jermaine’s drawing of his weapon and Coleman’s use of force in response to that
threat.
A rational juror in reading the self-defense jury instruction would have
understood that this confrontation with Jermaine was “directly and immediately
connected” to Coleman’s shooting of Dye. Jermaine drew his weapon from his belt
and started pointing it at Coleman immediately upon seeing Coleman shoot Dye,
and had not pointed his gun at Coleman until he saw Coleman shoot Dye.
A rational juror would have understood that if Coleman’s shooting of Dye was a
crime, then he was “committing” that crime when Jermaine drew his weapon and
when Coleman shot Jermaine. Jermaine started to draw his gun immediately upon
seeing Coleman shoot Dye, even before Dye had fallen to the ground. Coleman was

30

still pointing his gun at Dye when Coleman saw Jermaine draw his gun and turned
to face Jermaine. Only if Coleman had had the time before Jermaine drew his
weapon to communicate to Jermaine his intent not to shoot Dye again and not to
shoot Jermaine, and had in fact communicated that intent, could it rationally be
said that Coleman was no longer “committing” the supposed “crime” when Jermaine
drew his weapon. No rational juror would stretch the meaning of the “is
committing” language in the self-defense jury instruction so as to excuse, in the
absence of a communication by the defendant of an intent to withdraw, the killing of
a man naturally provoked to immediate violence by the unjustified shooting of his
father in his immediate presence.
Coleman’s issue-preclusion argument does not depend only upon the sentence in
the jury instruction which states that a person may not use force if he “is
committing a crime that is directly and immediately connected to the
confrontation.” Equally important is the language in the jury instruction which
states that a person may not use force if he "has willingly entered into a fight with
another person or started the fight, unless he withdraws from the fight and
communicates to the other person his intent to withdraw and the other person
nevertheless continues or threatens to continue the fight."
Because Coleman was acquitted of the murder in spite of the undisputed fact
that he knowingly caused the death of Jermaine, the jury necessarily decided that
Coleman reasonably believed that shooting Jermaine was necessary to prevent
serious bodily injury to himself or a third person or the commission of a forcible

31

felony and that Coleman had not, prior to shooting Jermaine, started a fight with
another person without withdrawing from the fight. Because Coleman was in a
gunfight with Dye immediately prior to shooting Jermaine and had not withdrawn
from the fight prior to shooting Jermaine (he had no chance and no time to do so,
and in fact was still pointing his gun at Dye when Jermaine pulled out his gun), the
jury by its acquittal necessarily decided that Coleman had not started the gunfight
with Dye. If Coleman did not start the gunfight with Dye, his shooting of Dye was
not a crime.
The “unless he withdraws from the fight” language in the jury instruction
illuminates the “is committing” language. Until a person withdraws from the
commission of a violent crime he "is committing" the crime. If a person has not
withdrawn from a supposed crime and nevertheless uses deadly force to defend
himself in a confrontation that is directly and immediately connected to the
supposed crime, and if a jury nevertheless determines that his use of deadly force to
defend himself was lawful, then the jury by its acquittal has necessarily decided
that the supposed crime was not a crime.
It is unclear what the Seventh Circuit meant by observing that Coleman’s issue
preclusion argument is “based on state law,” since it is hard to imagine an
argument that a state court conviction violates the U.S. Constitution that is not
based at least in part on state law. Although “Indiana appears to be unusual in
purporting to deny self-defense to anyone committing a crime as opposed to those
committing ‘forcible felonies,’" Mayes v. State, 744 N.E.2d 390, 397 n.1 (Ind. 2001)

32

(Boehm, J., concurring in result), – a peculiarity which seems to have been recently
mitigated somewhat by the Indiana Supreme Court in Gammons v. State, 148
N.E.3d 301, 304 (Ind. 2020) – there is nothing peculiar or unusual about the
principle that a person cannot be justified by self-defense if he has provoked or
instigated the violence by committing a forcible felony. That is the core principle at
issue in this case, and it is quite certain that no State in the country endorses a
contrary principle. This core principle is not really even an “exception” to the right
of self-defense, but rather intrinsic to the very concept of self-defense, that a person
is not legally justified in “defending” himself from force that he himself has
provoked or instigated by the use of unjustified violence. If a person is the
aggressor, he is not a defender.
B. Coleman himself is worthy of relief.
Coleman was on his own property, with his back to the door of a garage studio
inside of which he had placed his young son for his safety, when he was faced by two
armed, dangerous, and angry men. Jermaine was already within “close range” of
Coleman when Dye, who Coleman knew to be a “serious violent felon,” also marched
up to within what the Indiana Supreme Court called “close range” while holding a
gun in his right hand, even though he saw that Coleman also had a gun. At any
instant, in a split second, Dye could have raised his gun and shot Coleman, before
Coleman had an opportunity to react. Looking at the situation objectively, it is hard
to imagine how that situation on Coleman’s property, brought about by Dye and

33

Jermaine, was possibly going to somehow resolve itself peaceably. That was the
situation Coleman faced.
With the facts mostly not in dispute, the question for the first jury – and to some
extent for this Court – was whether Coleman’s actions were justified by selfdefense. Yeager tells us that “if it were relevant, the fact that petitioner has already
survived one trial should be a factor cutting in favor of, rather than against,
applying a double jeopardy bar.” On the other hand, the sad fact that a second jury
found Coleman’s shooting of Dye to be unjustified, aside from being completely
irrelevant to the issue preclusion analysis, can be explained in part by the
ineffective assistance of Coleman’s counsel at the second trial.
Similar situations, and even ones less dangerous, have been considered legally
insufficient to sustain a conviction or even a prosecution. See, e.g.,
https://www.indystar.com/story/news/crime/2017/07/20/wounded-neighbor-chargedjohnson-county-shootout/494768001/ (prosecutor declines to prosecute man who shot
neighbor who was moving backward on riding lawn mower while holding gun
pointed down at side);
https://www.washingtontimes.com/news/2015/dec/28/prosecutors-comments-on-thetamir-rice-police-shoo/ (prosecutor states at press conference: “Police are trained
that it only takes a third of a second or less to draw and fire a weapon upon them,
and therefore they must react quickly to any threat. . . . It would be (irresponsible)
and unreasonable if the law required a police officer to wait and see if the gun was
real.”); People v. LaVoie, 395 P.2d 1001 (Colo. 1964) (affirming directed verdict of

34

not guilty on ground of self-defense), discussed by Orin Kerr, The Volokh
Conspiracy, November 10, 2010, https://volokh.com/2010/11/10/people-v-la-voie-andkilling-in-self-defense/.
Finally, this Court should at least be aware, as was the trial court which
sentenced Coleman to an aggravated sentence of forty-five years, that Coleman had
rejected a plea offer from the State which would have allowed him to go home at the
time of the first trial. App. G; Tr. 2 at 10. The State strenuously objected when
Coleman’s counsel mentioned this at the sentencing hearing, but this Court is the
best judge of whether the fact that Coleman has paid with over a decade of his life,
and stands to pay more than a decade more, because of his personal conviction that
he had acted in legitimate self-defense and his corresponding decision to exercise
his right to jury trial, should factor into its determination of whether Coleman’s
case is worthy of this Court’s review. If there is such a thing as “consciousness of
guilt,” there is also consciousness of innocence.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

____________________________________
John A. Kindley
1626 Lincoln Way East
South Bend, IN 46613
(574) 400-5094
john@kindleylaw.com
Counsel of Record for Petitioner

35

